                                                                UNITED STATES GOVERNMENT
                                                      FEDERAL COMMUNICATIONS COMMISSION
                                                              OFFICE OF INSPECTOR GENERAL



                                                              MEMORANDUM


DATE:         October 31, 2011

TO:           Managing Director

FROM:         Inspector General

SUBJECT:      Report on Inspection of FCC Digital Printers, Copiers and Scanners


The Office of Inspector General (OIG) has completed an inspection of the Federal Communications
Commission’s (FCC) policies and procedures for ensuring that digital copiers, printers or scanners, when
going off lease or being de-accessioned, contain no sensitive, confidential, or personal data.

Our inspection found that the FCC has implemented some policies and processes to ensure that digital
copiers, printers or scanners, when going off lease or being de-accessioned, contain no FCC or corporate
sensitive data, or personally identifiable information (PII), however, these procedures need to be
formalized and finalized.

The results of this inspection were discussed with FCC management and staff knowledgeable with the
FCC digital copiers and their comments have been incorporated them into this report. The comments
received were in agreement with the report's conclusions. This report is being issued in final and no
response is required.

If you have any questions, please contact me at (202) 418-1522 or William Garay, Assistant Inspector
General for Audit at (202) 418-7899.


cc:    Chief of Staff
       Chief Information Security Officer
       Performance Evaluation and Records Management (PERM)
Federal Communications Commission
Digital Printer, Copier, and Scanner Inspection


             FEDERAL COMMUNICATIONS
                   COMMISSION




                       OFFICE OF INSPECTOR GENERAL
                           INSPECTION REPORT
             DIGITAL PRINTER, COPIER, AND SCANNER INSPECTION
                                Report No. 11-EVAL-02-01
                                    September 9, 2011




                                                  2
Federal Communications Commission
Digital Printer, Copier, and Scanner Inspection

                                   TABLE OF CONTENTS


      Summary                                                            3

      Objectives, Scope and Methodology                                  3

      Criteria                                                           3

      Conclusion                                                         4

      Background                                                         4

             Current FCC Processes                                       4

             Copier Contract and Statement of Work (SOW)                 6

             FCC Cyber Security Program, Interim Cyber Security Policy   6

             Xerox Product Security Features                             6

      Findings and Recommendations                                       7

      Appendix I - Xerox Product Security Features                       9




                                                  3
Federal Communications Commission
Digital Printer, Copier, and Scanner Inspection




   Summary
          This report presents our findings and recommendations based on our inspection of the
          Federal Communications Commission’s (Commission, or FCC) policies and procedures
          for ensuring that digital copiers, printers or scanners, when going off lease or being de-
          accessioned, contain no sensitive, confidential, or personal data.

          We conducted our inspection under the authority of the Inspector General Act of 1978, as
          amended, and according to “Quality Standards for Inspection and Evaluation,” January
          2011, issued by the Council of the Inspectors General on Integrity and Efficiency.

          A draft copy of this inspection report was provided to FCC management and staff
          knowledgeable with the FCC digital copiers for their comments. We received comments
          and incorporated them into the report. The comments received were in agreement with
          the report's conclusions.

   Objective, Scope, and Methodology
          The objective of our inspection was to determine whether the Commission had
          established and implemented policies and procedures to ensure that digital copiers,
          printers or scanners, when going off lease or being de-accessioned, contained no FCC or
          corporate sensitive data, or personally identifiable information (PII).

          The scope of our inspection was applicable FCC policies and procedures that address
          digital copiers, printers or scanners. The methodology included discussion with staff and
          management, review of current FCC policies and procedures, review of the current FCC
          copier Statement of Work (SOW), review of Xerox security webpages and documents,
          and the observation of Xerox multifunction peripheral (MFP) devices and network
          printers along with their configuration settings.

          There were no prior inspections or audits of this area performed.

   Criteria
        The criteria for this inspection included:

        NIST Special Publication 800-53 Revision 3, Recommended Security Controls for Federal
        Information Systems, states:
              MP-1 MEDIA PROTECTION POLICY AND PROCEDURES

              Control: The organization develops, disseminates, and reviews/updates [Assignment: organization-defined
              frequency]:


                                                              4
Federal Communications Commission
Digital Printer, Copier, and Scanner Inspection


           a.   A formal, documented media protection policy that addresses purpose, scope, roles, responsibilities,
                management commitment, coordination among organizational entities, and compliance; and

           b.   Formal, documented procedures to facilitate the implementation of the media protection policy and
                associated media protection controls.

           MP-6 MEDIA SANITIZATION

           Control: The organization sanitizes information system media, both digital and non-digital, prior to disposal,
           release out of organizational control, or release for reuse. 1


Conclusion

     We found that the FCC had not formally documented the FCC baseline secure
     configuration for the Xerox MFP devices.

     The FCC has issued the Interim Cyber Security Policy, which, in paragraph 2.12
     Contracting, addresses digital copiers. However, even though this policy proactively
     addresses security in the procurement process, this interim policy does not address policy
     and procedures for the baseline secure configuration of digital copiers before they are
     connected to the production network.

     The FCC has implemented informal processes which ensure that digital copiers, printers or
     scanners, when going off lease or being de-accessioned, contain no FCC or corporate
     sensitive data, or personally identifiable information (PII).

     We make recommendations at the end of this report that address these conclusions.

Background
       Investigative news reports have revealed instances where companies and government
       agencies have returned leased copiers that still contained sensitive data. The objective of
       this inspection was to determine whether the Commission had established policies and
       procedures to ensure that digital copiers, printers or scanners, when going off lease or
       being de-accessioned, contain no FCC or corporate sensitive data, or PII.




1
  Pursuant to the Federal Information Security Management Act of 2002 (“FISMA”), federal agencies
are required to follow the recommendations in NIST Special Publication 800-53 Revision 3,
Recommended Security Controls for Federal Information Systems, August 2009, by the Federal
Information Processing Standards Publication 200, Minimum Security Requirements for Federal
Information and Information Systems, March 2006 (“FIPS PUB 200”).



                                                            4
Federal Communications Commission
Digital Printer, Copier, and Scanner Inspection


      Current FCC Processes

      The FCC took action regarding digital copier security in May 2010 and enabled data
      protection regarding MFP devices, which are digital copiers, scanners, and printers.

      These informal procedures included:

      1) Daily image overwrite (3X) of all image data from disk or other non-volatile storage,
      including any pending jobs.

             FCC has configured these MFP devices to automatically and immediately
             overwrite the data as soon as printing is complete. This overwrite also occurs
             every 24 hours. Pending jobs refer to print jobs that have been spooled to the
             MFP device using the Secure Print option. Until the person who spooled this
             Secure Print job comes to the MFP device and enters his or her user name and
             PIN to print the job, it is a pending job. If a Secure Print job is not printed within
             24 hours of having been spooled, it is overwritten.

      2) Encryption on all FCC MFP devices to ensure all FCC users are protected.

             Xerox also provides a data encryption feature that, when enabled, encrypts all
             stored data with an AES 128-bit encryption algorithm.

      3) When Xerox MFP devices are due for return, the hard drives are removed (by the
      vendor) before the MFP device leaves FCC facilities. These hard drives are then given to
      IT, stored for proper disposal, and then destroyed. The FCC contracts for MFP devices
      with removable hard drives, specifically, so that at the end of the lease term these hard
      drives can be removed and then destroyed.

      When the Xerox MFP device configuration was first defined by a workgroup, no formal
      documentation of the Xerox MFP device configuration was issued.

      The procedures for configuring the Xerox MFP devices are not documented by the FCC
      because the procedures describing how to securely configure the Xerox MFP devices are
      in the Xerox MFP device manuals.

      Formally documenting the FCC standard secure configuration for the Xerox MFP devices
      has not been performed. Specifically, there is no list of what changes are made to the
      default settings. For example, the default email function is turned off.

      During the course of this inspection, we determined that only the Xerox MFP devices
      contain hard drives.




                                               5
Federal Communications Commission
Digital Printer, Copier, and Scanner Inspection


      When FCC Information Technology Center (ITC) staff was interviewed, they stated that
      FCC network printers do not have hard drives. The result of a random selection of 12
      network printers’ configuration files showed that none of the sampled network printers
      had hard drives. While making these observations, we noted that within FCC
      headquarters, the most common MFP devices are the Xerox 4110 and the Xerox
      Workcentre 7655. The most common network printer is the Xerox Phaser 4500.

      Copier Contract and Statement of Work (SOW)

      The current Xerox contract (FCC-RFQ-11000012) has various contract clauses/sections
      that reflect hard drive removal and data overwrite.

      The current copier SOW contains copier specification clauses that require

              “Secure Print, Image Overwrite up to 3 times, Data Encryption (SSL/TLS),
              Removable Hard Disk Drive, Disk Overwrite, IPV6 compliant, IP filtering”

      This clause reflects data sanitization and/or hard drive removal requirements.

      Currently, the FCC is transitioning from the old copier contract to a new copier contract.
      Normally, based on ITC feedback, the vendor provides one of the new MFP devices one
      week in advance of the delivery of all the others, so that the ITC can define and securely
      configure that one. All the other MFP devices are then securely configured the same as
      the first one. Currently, the ITC does not formally document this baseline secure
      configuration. Thoroughly documenting it would prevent baseline inconsistencies.

      FCC Cyber Security Program, Interim Cyber Security Policy

      In July 2011, the FCC Cyber Security Program issued the Interim Cyber Security Policy,
      Version 2.0, effective date July 15, 2011, which addresses contracting for leased
      computers, printers, or copiers. This interim policy contains language addressing the
      digital copier security issue. Specifically:

          2.12 Contracting

          FCC relies on contractor support for administrative, technical and subject matter expertise.
          Additionally, FCC contracts purchase and leases of computer and other electronic equipment such as
          printers, scanners, and copiers. As solicitations for contracts are released, they should include, at a
          minimum:

              ....
              • For leased computers and printers or copiers with hard drives, contract clause should state that
                   all hard drives and removable media remain the property of FCC at lease end, or that all data
                   to be removed by FCC personnel prior to lease termination.




                                                       6
Federal Communications Commission
Digital Printer, Copier, and Scanner Inspection


      However, even though this policy proactively addresses security in the procurement
      process, this interim policy does not address policy and procedures for the baseline secure
      configuration of digital copiers before they are connected to the production network.

      Xerox Product Security Features

      As a result of this inspection, we determined that some of the product security features
      that Xerox offers include:

             Disk Encryption – Uses AES 128-bit encryption (or AES 256-bit depending on
             model) to secure data at rest.

             On Demand Image Overwrite – Executed prior to removal or as needed to remove
             all image data from disk or other non-volatile storage.

             Immediate Image Overwrite – Automatically executed immediately after jobs are
             completed to remove image data from disk or other non-volatile storage.

             Scheduled Image Overwrite – Automatic, daily overwrite of all image data from
             disk or other non-volatile storage including any pending jobs.

             Hard Drive Retention Service – Xerox has what it calls the Hard Drive Retention
             Service. This service allows the customer, for a fee, to retain their hard drive(s)
             and sanitize or destroy them in a manner consistent with internal policies or
             regulatory standards.

      We noted for some of the copiers and printers at FCC Headquarters, the following
      features were offered:

             The WorkCentre 7655 uses a hard drive for all imaging functions. Image
             Overwrite and disk encryption are included as standard features.

             The Xerox 4110 uses a hard drive for all imaging functions. An optional Security
             kit that includes Image Overwrite and Encryption features is available. An
             optional Removable Hard Drive kit may be available. Overwrite is not enabled
             by default. Encryption of image data in the print engine is not enabled by default.

             The Phaser 4500 does not use a hard drive for printing, unless the optional hard
             drive has been installed. Image Overwrite is installed, but disabled by default.
             Disk Encryption is available, but the default state is no encryption.

      Finally, attached as an appendix is a listing of security features offered on Xerox
      products.




                                               7
Federal Communications Commission
Digital Printer, Copier, and Scanner Inspection


Findings and Recommendations
   1. Finding: The FCC has not formally documented the FCC baseline secure configuration
      for the Xerox MFP devices.

      Recommendation: The FCC should formally document the FCC baseline secure
      configuration for the Xerox MFP devices.

   2. Finding: The FCC has issued the Interim Cyber Security Policy, which addresses digital
      copiers. However, even though this policy proactively addresses security in the
      procurement process, this interim policy does not address policy and procedures for the
      baseline secure configuration of digital copiers before they are connected to the
      production network.

      Recommendation: FCC should finalize the FCC Cyber Security Policy, and consider
      updating it to reflect policy and procedures for establishing, documenting, and
      implementing the baseline secure configuration of digital copiers before they are
      connected to the production network. Also, the FCC should consider including additional
      copier security features language, along with coordinating with the Contracts and
      Purchasing Center (CPC) for copier security requirements language for new
      procurements.

   3. Finding: While the FCC has implemented informal processes, the FCC has not
      implemented and documented formal processes which ensure that digital copiers, printers
      or scanners, when going off lease or being de-accessioned, contained no FCC or
      corporate sensitive data, or PII.

      Recommendation: The FCC should formally document the processes which ensure that
      digital copiers, printers or scanners, when going off lease or being de-accessioned,
      contained no FCC or corporate sensitive data, or PII.




                                              8
Federal Communications Commission
Digital Printer, Copier, and Scanner Inspection


Appendix I – Xerox Product Security Features


Extract from Xerox Product Security Webpage

Source: http://www.xerox.com/information-security/product-security/enus.html


Specific security features on Xerox devices include:

Image Overwrite Option: The Image Overwrite security option electronically shreds
information stored on the hard disk of devices as part of routine job processing. Electronic
erasure can be performed automatically at job completion (Immediate), On Demand, and on
some models Scheduled. The Xerox Image Overwrite security process implements a three-pass
algorithm originally specified by the U.S. Department of Defense.

Data Encryption: All data in motion in and out of the device, as well as data stored within the
device, is secured with state of the art encryption. Most Xerox devices support several different
protocols for encrypting data in motion in and out of the device including SSL and IP Security
(IPSec). Note that scanning, printing, and access to the Web/remote user interface can be secured
with either SSL/TLS or IPSec.

Access Security Software Page: Unified ID System integrates your Xerox multifunction
systems with your existing employee/student ID badge solution to provide a flexible and
convenient authentication system. Users simply log-in with a swipe of their magnetic or
proximity ID card for secure access to MFP system functions that need to be tracked for
accounting or regulatory requirements.

Embedded Fax: While firewalls work at the network periphery to prevent unauthorized access
to a customer's environment, unprotected fax connections in multifunction devices can be an
open "back door" into the network. Xerox was the first manufacturer to offer a Common Criteria
certified product that assures complete separation of the fax telephone line and the network
connection, and continues to include that claim in all product certifications.

Xerox Standard Accounting: When enabled on Xerox office printers and multifunction
devices, this feature monitors the print, copy, scan and fax pages produced and who produces
them. Administrators can limit the number of print, copy, scan and fax jobs a user can perform,
track activity at a user, group or department level, and manage access to color copying and
printing.

User Authorization: Use of device functions (e.g., scan, e-mail and fax) can be restricted by
user and by function according to access control lists set by the System Administrator.




                                                9
Federal Communications Commission
Digital Printer, Copier, and Scanner Inspection


Secure Print: When sending a job from a print driver or using the web print submission tool, the
user selects the Secure Print method and enters a unique PIN number. Jobs are sent and safely
stored at the device until the user enters that same unique PIN to release them. This controls
unauthorized viewing of hard copy documents sent to the printer.

Extensible Interface Platform® (EIP): A labor saving feature for office and multifunction
devices, this allows document-related software applications to be accessed on the user interface
to improve workflow and minimize time at the device.

Removable Hard Disk Drive Accessory/Kit: Removable Hard Drive Kits are only supported
on some Production High Volume systems which allow the System Administrator to quickly and
easily remove hard drives and lock them up. This eliminates the risk of unauthorized access
when the device is unattended or is powered off at end of day. This capability is helpful for
customers who print data that is subject to legal regulations (e.g., HIPAA, PCI) or might have a
Variable Input Printing database containing sensitive information.

Access Control: Most customers need to restrict access to a device to a limited set of authorized
users and Operators. Xerox production devices include access control features such as:

       Authentication Feature: This feature ensures that only properly authorized users are
       permitted to use a Production device. Any type of interaction between a user and a Xerox
       production device is associated with a security account. The association, or logon session,
       is the basis for granting access to any user. Once the logon session is established, the user
       can interact with the printer or access customer data, subject to restrictions based on the
       user's Role.

       Role Based Access Control (RBAC): The RBAC feature ensures that authenticated
       users are assigned to a role of User, Operator, or Administrator. Each role has associated
       privileges with appropriate levels of access to features, jobs and print queue attributes.

       Microsoft Active Directory Services: The Microsoft Active Directory Services (ADS)
       feature enables the device to authenticate user accounts against a centralized user account
       database, instead of exclusively using the user account database that is managed locally at
       the device.

Network Security:

Many Xerox devices also include features to protect the printer from unauthorized remote access
and to protect the confidentiality of “data in motion”, specifically customer jobs which are
transmitted to the printer over a network. These features include:

IPFiltering: Internet Protocol (IP) Filtering capability enables a system administrator to restrict
access to the device to a limited set of IP addresses. This provides a defense against remote




                                                 10
Federal Communications Commission
Digital Printer, Copier, and Scanner Inspection


attackers. Computers whose IP addresses are outside of the allowed set are not permitted to
access the device.

IPSec: Internet Protocol (IP) Security enables the digital front end or printer device to
authenticate remote users and requires these users to encrypt the data transmitted using legacy
print protocols such as LPR and Port 9100. IPSec is supported by a variety of PC operating
systems including all modern versions of Microsoft Windows.

Secure Socket Layer/Transport Layer Security (SSL/TLS): The SSL/TLS feature provides
protection of customer confidential data transmitted over a network when using the HTTP
protocol (e.g., Web Print client).

Digital Certificate: The Digital Certificate feature enables the system administrator to create a
self-signed digital certificate, or import a digital certificate signed by a Certificate Authority
(e.g., RSA, VeriSign). A digital certificate enables print clients to authenticate a printer/print
server and to encrypt data using SSL/TLS.

Network Authentication: Access to device functions (e.g., scan, e-mail and fax) is restricted by
validating network user names and passwords prior to use of these functions.

802.1x Device Authentication: Office devices implement the 802.1x standard. This allows the
device to be authenticated on a network before the network will allow any network traffic to pass
to or from the device. This stops rogue devices from infiltrating the network.




                                                11
